<html>
<title> - MARITIME DOMAIN AWARENESS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                       MARITIME DOMAIN AWARENESS

=======================================================================

                                (111-82)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 9, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
54-021                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="95f2e5fad5f6e0e6e1fdf0f9e5bbf6faf8bb">[email&#160;protected]</a>  


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California

                                  (ii)

  
?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                 ELIJAH E. CUMMINGS, Maryland, Chairman

CORRINE BROWN, Florida               FRANK A. LoBIONDO, New Jersey
RICK LARSEN, Washington              DON YOUNG, Alaska
GENE TAYLOR, Mississippi             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              VERNON J. EHLERS, Michigan
TIMOTHY H. BISHOP, New York          TODD RUSSELL PLATTS, Pennsylvania
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
MICHAEL E. McMAHON, New York, Vice 
Chair
LAURA A. RICHARDSON, California
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Podlich, Margaret, Vice President, Government Relations, BoatU.S.     4
Salerno, Rear Admiral Brian M., Assistant Commandant for Marine 
  Safety, Security and Stewardship, United States Coast Guard....     4

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Podlich, Margaret................................................    34
Salerno, Rear Admiral Brian M....................................    45

                       SUBMISSIONS FOR THE RECORD

Salerno, Rear Admiral Brian M., Assistant Commandant for Marine 
  Safety, Security and Stewardship, United States Coast Guard:...
      Response to request for information from Hon. Cummings, a 
        Representative in Congress from the State of Maryland:...
          Regarding enhanced registration information............    13
          Regarding States with which the Coast Guard does not 
            have a memorandum agreement..........................    11
          Regarding the Coast Guard Operations System Center's 
            onsite support contractor............................     7
      Response to request for information from Hon. Young, a 
        Representative in Congress from the State of Alaska:.....
          Regarding Alaska state pilots..........................    16
          Regarding cold weather survival training...............    18
          Regarding LORAN-C signal...............................    20
      Response to request for information from the Subcommittee..    56

[GRAPHIC] [TIFF OMITTED] T4021.001

[GRAPHIC] [TIFF OMITTED] T4021.002

[GRAPHIC] [TIFF OMITTED] T4021.003

[GRAPHIC] [TIFF OMITTED] T4021.004

[GRAPHIC] [TIFF OMITTED] T4021.005

[GRAPHIC] [TIFF OMITTED] T4021.006

[GRAPHIC] [TIFF OMITTED] T4021.007

[GRAPHIC] [TIFF OMITTED] T4021.008

[GRAPHIC] [TIFF OMITTED] T4021.009

[GRAPHIC] [TIFF OMITTED] T4021.010

[GRAPHIC] [TIFF OMITTED] T4021.011

[GRAPHIC] [TIFF OMITTED] T4021.012

[GRAPHIC] [TIFF OMITTED] T4021.013

[GRAPHIC] [TIFF OMITTED] T4021.014

[GRAPHIC] [TIFF OMITTED] T4021.015

[GRAPHIC] [TIFF OMITTED] T4021.016

[GRAPHIC] [TIFF OMITTED] T4021.017

[GRAPHIC] [TIFF OMITTED] T4021.018

[GRAPHIC] [TIFF OMITTED] T4021.019



                  HEARING ON MARITIME DOMAIN AWARENESS

                              ----------                              


                      Wednesday, December 9, 2009,

                  House of Representatives,
             Committee on Coast Guard and Maritime 
                                    Transportation,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:04 p.m. in 
room 2167, Rayburn House Office Building, Honorable Elijah E. 
Cummings [Chairman of the Subcommittee] presiding.
    Mr. Cummings. The Committee will come to order.
    We convene today to consider the issue of maritime domain 
awareness, which is defined broadly to mean our awareness of 
and ability to respond to all things in the maritime domain 
that may potentially pose a threat to the United States.
    According to the Department of Homeland Security, nearly 85 
percent of Americans live within 100 miles of a coast, and the 
economic activities and jobs located in coastal areas comprise 
nearly half of the Nation's gross domestic product.
    Many critical natural resources are also located on or near 
our Nation's 95,000 miles of coastline, including more than 360 
ports, which are visited by nearly 8,000 foreign-flagged 
vessels on an annual basis.
    While there are many possible threats to the United States 
mainland arising in the maritime domain, significant steps have 
been taken since 9/11 to identify and mitigate some of these 
threats. Most commercial vessels and foreign recreational 
vessels coming to the United States are now required to notify 
the Coast Guard of their destination at least 96 hours prior to 
their arrival. Commercial vessels are also required to submit 
to the Coast Guard significant amounts of data on their 
vessels, including cargo type, registry, and updates on course 
and heading at frequent intervals using two different 
electronic tracking systems.
    However, one of the elements in the maritime domain that is 
now considered to be among the most significant threats is the 
presence of millions of small boats, most of which are 
recreational pleasure craft. Responding to the perceived 
threats associated with small boats is now a key focus of 
maritime security initiatives being undertaken by the Coast 
Guard and DHS.
    In April, 2008, the Department of Homeland Security 
released its small vessel security strategy, which is intended 
to address the risks that a small vessel might be used to 
smuggle a weapon of mass destruction into the United States or 
be used in some other type of terror attack.
    The strategy lays out four broad goals, including the 
following: using a layered approach to enhance security and 
safety; developing strong partnerships with the small vessel 
community; leveraging technology to enhance the ability to 
detect and, when necessary, interdict small vessels; and 
enhancing cooperation between Federal officials and State, 
local, tribal and private sector authorities.
    For each goal, the small vessel security strategy 
identifies a number of specific objectives intended to support 
achievement of a goal. In September of this year, the 
Department of Homeland Security's Inspector General issued a 
critical assessment of the small vessel security strategy. The 
assessment concludes that the strategy is, frankly, not 
comprehensive and is missing important elements, including 
performance measures, details on associated costs, and human 
capital needs, accountability and oversight frameworks, and 
implementation guidance for State, local and private sector 
partners.
    That said, I think the key is not necessarily whether the 
April, 2008 strategy can counter the small-boat threat. 
Examining this issue more broadly, we need to understand what 
is the true nature of the small-boat threat and whether any 
strategy can effectively counter this threat, given the 
millions of small boats that move in very loosely regulated 
fashion across the waterways in plain view of countless pieces 
of sensitive infrastructure.
    Most small vessels are not subject to the tracking 
requirements applied to larger vessels. And while all vessels 
with mechanical propulsion systems are required to register 
with the State and display a number on their hulls, the States 
have varying registration requirements, have not ensured the 
consistency of their data, and have not even ensured that all 
State-issued identification numbers are unique.
    I also note that the Coast Guard was instructed by Chapter 
123 of Title 46 to develop a national vessel identification 
system capability capable of making available to law 
enforcement officials information on the ownership and 
registration of State-registered small boats. The Coast Guard 
has concluded agreements with 25 States, the District of 
Columbia and a number of territories to collect such data, but 
half of the States are not providing any data on registered 
vessels.
    As such, the Federal Government and the States are not even 
able to draw on all of the data that already exists on small 
vessels, despite the fact that all of the data that is 
available on registered small boats is not currently compiled 
into a system that can be used on a nationwide basis in 
different forms.
    The Commandant of the Coast Guard, Admiral Allen, has 
proposed the possibility of creating boating licenses similar 
to motor vehicle driver's licenses. Others have proposed 
creating and mandating the use of new or expanded systems to 
track small vessels.
    That said, it is not all clear from the small vessel 
security strategy and from the assessments of ongoing maritime 
domain awareness efforts developed by groups such as the GAO, 
the DHS Office of Inspector General and the RAND Corporation 
that vessel tracking data alone would enable us to identify 
threats in the maritime domain.
    Further, it is not clear that the volume of data that the 
current tracking of commercial vessels generates or that would 
be generated through the tracking of small vessels is even 
manageable using available information technology systems.
    Additionally, some have criticized current maritime domain 
awareness efforts by pointing out that it would be difficult, 
if not impossible, to develop actionable intelligence by 
seeking anomalies among the small boat community, and further, 
that it would be difficult, if not impossible, to interdict a 
determined small boat attack that is already underway, given 
that available response time might be measured in seconds.
    The DHS small vessel security strategy does highlight the 
importance of the development of partnerships between the 
Federal Government and the small boating community, 
particularly as those who recreate on the water on a regular 
basis are far more likely than Federal officials to be able to 
quickly identify boats out of place and situations that may 
present danger.
    Unfortunately, the DHS Inspector General has found that 
only a small percentage of the small boating community is even 
aware of America's Waterway Watch Program or of the desire of 
the Coast Guard to receive reports of suspicious activity from 
recreational boaters. Today's hearing is intended to provide an 
overview of current maritime domain awareness efforts, 
particularly regarding the small boat threat.
    As we examine this complex issue, we look forward to the 
testimony of Rear Admiral Brian Salerno, the Assistant 
Commandant for Marine Safety, Security and Stewardship, and 
Margaret Podlich, Vice President of Governmental Affairs with 
BoatU.S.
    With that, I recognize the distinguished Ranking Member, 
Mr. LoBiondo.
    Mr. LoBiondo. Thank you, Chairman Cummings, for calling 
this very important meeting. You have articulated many of the 
important things to be considered.
    I think the Coast Guard operates a broad array of systems 
and sensors to gather data to enhance the service's awareness 
of activities in the maritime domain. These systems are used to 
direct Coast Guard operations across mission areas, even though 
each individual system was originally developed to address a 
narrow range of mission needs.
    And at a time when Coast Guard assets and personnel are 
stretched to a critical limit, maritime domain awareness 
programs act as a critical force multiplier, but only if 
information is integrated and distributed for action at all 
levels of the Coast Guard.
    I am concerned that the Coast Guard lacks the resources and 
infrastructure to sufficiently tie these disparate systems into 
one common operating picture. Earlier this year, Coast Guard 
personnel were unable to access information from the vessel 
monitoring system to assist in the location of a fishing vessel 
which was the focus of a search and rescue mission.
    The Subcommittee has also examined the lack of 
standardization in procedures governing the use of maritime 
domain awareness information across Coast Guard districts and 
units. I support the Coast Guard's efforts to construct a 
comprehensive common operational picture, but we need to 
examine whether the service has the capabilities to operate a 
robust system.
    Further, I am concerned by the apparent lack of strategy to 
develop systems best suited to provide the types of information 
needed for enhanced maritime domain awareness. The Coast Guard 
has proposed to require fishing vessels to carry automatic 
identification system transponders to provide position data. 
This would be in addition to the vessel monitoring system that 
fishing vessels are already required to carry, which provides 
very similar information.
    Other vessels are required to carry different transponders 
to meet the needs of long-range identification and tracking 
systems, in addition to AIS transponders. Yet, I do not know if 
the Coast Guard has ever looked into these systems in totality 
to determine whether they are providing the data necessary to 
assist in all Coast Guard mission areas. Several systems 
provide duplicative information and all of the data streams 
were designed for various and often unrelated mission-specific 
goals.
    I would be interested to hear our witnesses' opinions on 
whether all of these programs are needed and how we can best 
focus future MDA efforts to provide the most useful information 
and intelligence.
    Maritime domain awareness is a critical tool to maximize 
the Coast Guard's capabilities to safeguard American interests 
in U.S. waters on the high seas, but we need to balance the 
need to obtain information with the impacts that the system 
imposes on the flow of commerce through U.S. ports.
    We also need to continually oversee this program as it 
matures to ensure we are making the best investment for the 
taxpayers.
    Once again, Mr. Chairman, I thank you for calling the 
hearing and I thank our witnesses for being here today.
    Mr. Cummings. Mr. Young?
    Mr. Young. Mr. Chairman, I have questions to ask after the 
witnesses testify. That is it.
    Mr. Cummings. Thank you very much.
    We now welcome our first panelist, Rear Admiral Brian M. 
Salerno, who is the Assistant Commandant for Marine Safety, 
Security and Stewardship for the United States Coast Guard.
    Rear Admiral Salerno, welcome.

     TESTIMONY OF REAR ADMIRAL BRIAN M. SALERNO, ASSISTANT 
COMMANDANT FOR MARINE SAFETY, SECURITY AND STEWARDSHIP, UNITED 
     STATES COAST GUARD; MARGARET PODLICH, VICE PRESIDENT, 
                 GOVERNMENT RELATIONS, BOATU.S.

    Admiral Salerno. Thank you and good afternoon, Mr. 
Chairman, Ranking Member LoBiondo and distinguished Members of 
the Committee.
    I am very pleased to be here this afternoon to update you 
on the Coast Guard's efforts to leverage maritime domain 
awareness, or MDA.
    As this Committee is well aware, MDA is critical to the 
Coast Guard's missions of ensuring the safety, security and the 
efficiency of our Nation's maritime activities, and to 
protecting our fragile maritime environment. So I thank this 
Committee for placing emphasis on this very important topic.
    The sea has always been a source of great opportunity and 
danger, yet our lack of understanding of the sea, and in 
particular what others are doing upon it, has throughout 
history cost thousands of lives and done great harm. Storms, 
criminals, hostile navies, polluters, terrorists, all have 
caused untold damage to coastal nations and mariners.
    While we have made great strides in predicting and 
mitigating the threats associated with weather, we have yet to 
make equal progress in seeing and understanding other maritime 
threats and then sharing the resulting information with those 
who need it. Improving our awareness will create a safer 
transportation system, a cleaner environment, and a maritime 
space in which it is much more difficult to pursue malicious 
intent.
    The Coast Guard is the lead Federal agency for maritime 
transportation safety, law enforcement and environmental 
stewardship. That has a broad set of responsibilities and 
authorities. This gives us a unique leadership role in helping 
to coordinate maritime governance across a very broad set of 
government, commercial and private stakeholders, both 
domestically and internationally.
    The key ingredient to a governance regime is maritime 
domain awareness through which we maintain an understanding of 
maritime space with all of its natural and manmade 
complexities. MDA activities can be easily characterized as 
enabling us to see, to understand, and then to share 
information as displayed overhead on the graphic.
    For an organization with as broad a set of responsibilities 
as the Coast Guard, a good understanding of what is going on in 
our ports and waterways, coastal approaches and far out to sea 
is essential to effective and efficient mission performance. 
Whether it is pursuing polluters that have illegally discharged 
into the environment, protecting dwindling fish stocks, 
intercepting drug smugglers, human traffickers or potential 
terrorists, we must first know where they are.
    Our ultimate goal is to prevent harm to the public and the 
environment. Maritime domain awareness optimizes our mission 
effectiveness. And it does so by providing transparency. When 
people know we are looking, it keeps them honest, just as in 
the case of polluters. It improves our awareness of what is 
occurring so that we can better target our limited resources to 
greater effect, especially in time-critical intervention and 
response missions.
    And most importantly, greater awareness can often let us 
anticipate a looming threat and intervene early. And this is 
true regardless of the nature of the threat. Just a few weeks 
ago, when severe weather was closing in on New England, the 
Coast Guard used data from NOAA's vessel monitoring system to 
seek out and warn fishing vessels which were operating offshore 
and at high risk, and urged them to seek shelter. Through 
awareness and information sharing, lives were saved, even 
though no rescues were recorded.
    The Coast Guard has been a leader in advocating for and 
coordinating efforts among a myriad of maritime stakeholders to 
improve MDA. And I stress the word coordinating, because there 
is no single solution, nor can MDA be the effort of a single 
agency or even a single government. Rather, improved awareness 
must be developed across the broad maritime community with a 
wide range of participants.
    While much remains to be done, we have also accomplished 
much in the last several years. We have improved sensors on our 
aircraft, which have allowed us to detect smugglers who 
previously would have gone undetected. Our participation in the 
intelligence community and our relationships with other 
governments has enabled us to identify and intercept potential 
threats far at sea.
    We have improved information-sharing and coordination at 
the national level and also in our courts. Partial 
implementation of the nationwide automatic identification 
system has improved overall understanding of maritime activity, 
contributed to safe navigation, assisted in search and rescue, 
and improved our ability to investigate accidents.
    And we played a leading role in bringing online the 
international long-range identification and tracking system, or 
LRIT. This system will give us visibility on major commercial 
vessels that are within 1,000 miles of any U.S. coast and will 
allow us to track U.S.-flag vessels worldwide.
    This latter feature was required ahead of schedule for 
U.S.-flag vessels operating off the Horn of Africa where we 
continue to be concerned about the risks of piracy. It now 
enables the Coast Guard to monitor their presence in the region 
and to share that information with DOD and with MARAD.
    Nevertheless, we recognize that more needs to be done. The 
policy and the procedural changes associated with information-
sharing are significant. We have found that the relationships 
for and between the elements of our own government and with 
other friendly governments and with the private sector remain 
the most important factor in enabling the sharing of existing 
sensor information and available data.
    Thank you again, Mr. Chairman, for the opportunity to be 
here today, and I would be happy to take your questions.
    Mr. Cummings. Thank you very much, Admiral.
    Admiral, in 1988, Congress required the Coast Guard to 
establish a vessel identification system which was to be 
basically a compilation of all boating registration numbers and 
ownership information gathered by the States.
    Using this system, a Coast Guard security patrol could 
obtain the ownership information for a vessel from the vessel's 
hull number before they ever stopped it, much as a police 
officer can obtain information regarding the ownership of a car 
from its license plate before the car is even pulled over.
    It is my understanding that 25 States, five territories and 
the District of Columbia have signed agreements with the Coast 
Guard under which they will provide data on registered vessels 
to the Coast Guard's vessel identification database.
    Let me ask you this. Are all of the States that have signed 
agreements to participate in the vessel identification system 
providing all of their available data on registered vehicles? 
Or are they providing only a select piece of data or select 
pieces?
    Also, does the Coast Guard collect the data directly or is 
it collected by a third party? And if so, who is the third 
party?
    Admiral Salerno. Sir, you are correct. The system is in 
place. It is a Coast Guard-managed program. We do have a 
contractor who does that on our behalf. There are 25 States, as 
you mentioned, five territories and the District of Columbia, 
currently participating. The information that is shared is boat 
registration information, ownership information associated with 
each individual boat.
    Mr. Cummings. Who is the contractor?
    Admiral Salerno. Sir, let me check on the identity of the 
contractor and see if I have that here, and I can get back to 
you.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T4021.020
    
    Mr. Cummings. Do you know whether that is something that is 
put out to bid, or what? I mean, how does that work?
    Admiral Salerno. Sir, I don't have that contractor identity 
with me presently, so I would like to get back to you on the 
record.
    Mr. Cummings. And I want to know more about how that 
contract comes about. In other words, is it bid? I would just 
like to know exactly how you do it.
    Admiral Salerno. Yes, sir. I will get you the contact in 
detail, sir.
    Mr. Cummings. Okay. Continue.
    Admiral Salerno. One of the concerns that many of the 
States have raised with this system is the privacy of the 
information and how it is shared. In fact, the enabling 
legislation for the vessel identification system is relatively 
broad in what could be shared and who would have access to it.
    So for example, a bank may seek to get access to that 
information because of loan purposes or there may be tax issues 
involved. And for that reason, some of the States are concerned 
because of their own internal legislation which addresses 
privacy concerns. So they have been unwilling to enter into an 
agreement with us to share that information or enter it into 
our database.
    So in that sense, the legislation is almost--is too open. 
If it were to be a little bit more restricted, limited only to 
law enforcement or to security purposes, some additional States 
may be more willing to participate.
    Mr. Cummings. Well, can't that happen? Can we do that? Can 
that happen? I mean, in other words, limiting it to law 
enforcement?
    Admiral Salerno. My understanding, the way the statute is 
structured, it is broader than that. So I think that would 
require a legislative change if we wanted to limit it.
    Cost considerations have also been cited because there is 
some cost in terms of just setting up the mechanisms by which 
the information can be shared. We operate the system at no cost 
to the States. Essentially what the States do is they provide 
data on a monthly basis to update the database, and then any 
State that provides data has the ability to get data from any 
other State that is participating in the system, to achieve the 
effect you describe, so that a law enforcement officer in one 
State can access registration data from another State.
    Mr. Cummings. So right now, we get it from 25 States. Is 
that right?
    Admiral Salerno. That is correct. Yes, sir.
    Mr. Cummings. And so we have basically half of the Country 
that does not provide it.
    Admiral Salerno. That is correct. Yes, sir.
    Mr. Cummings. And what kind of efforts are being made to 
try to get the other 25, because that is a lot of folks, and I 
would imagine if you have these breaks in the information, that 
is, you have one jurisdiction and then you skip and they maybe 
close to each other or adjacent, one giving information, the 
other not. And if somebody's trying to do something that is 
illegal, knowing that one jurisdiction doesn't collect the 
information and the other does, you know, it seems like that 
would be a pure nightmare.
    Admiral Salerno. Sir, we have made direct outreach to all 
of the States, primarily through the National Association of 
State Boating Law Administrators, or NASBLA, to work with the 
individual State governments and encourage them to enter into 
an agreement with us. And there is an agreement between the 
Coast Guard and each individual State. It is a memorandum of 
agreement that we sign.
    And so we have worked with them, but essentially this is 
the feedback we have received. We are continuing to make that 
outreach, but we are running into some brick walls in some 
cases.
    Mr. Cummings. Okay. And can you provide us with a list of 
the States?
    Admiral Salerno. Yes, sir. I can provide that to you for 
the record.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T4021.021
    
    Mr. Cummings. Do you know whether Maryland is one of the 
States?
    Admiral Salerno. I believe Maryland is a participating 
State, sir.
    Mr. Cummings. All right. Okay.
    The small vessel security strategy suggests that the 
benefits and costs of legislative and regulatory options 
pertaining to an AIS registration and reporting of small 
vessels, and what are the enhanced registration and reporting? 
What does that mean, requirements that should be considered for 
small vessels? In other words, do you need additional 
information?
    Admiral Salerno. No, I don't believe there is a requirement 
for enhanced registration information, sir. Because the 
registration system actually is operated through----
    Mr. Cummings. It says ``assessing the benefits and costs of 
legislative and regulatory options''--this is a quote--
``pertaining to an AIS registration and reporting of small 
vessels.''
    Admiral Salerno. I believe that may be related to your 
previous question, sir, expanding the number of States that 
will participate in the VIS Program.
    Mr. Cummings. Yes. Okay.
    Admiral Salerno. And so perhaps when I respond to you for 
the record with the States and the background on that system, I 
can provide you additional information along those lines as 
well.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T4021.022
    
    Mr. Cummings. Okay. Do you see that having half of the 
States not cooperating as a problem?
    Admiral Salerno. Yes, sir. It represents a gap in our 
awareness of what is occurring on the water and our ability to 
identify vessels on the water that may be involved in activity 
that could be questionable.
    Mr. Cummings. And do you know of situations where because 
you did not have the cooperation of a State it caused problems 
for the Coast Guard? I mean, do you have any specific cases 
that you know of? I am sure you must have talked to some folks 
before you came here today to kind of figure out the most 
obvious problems that you might be confronted with.
    Admiral Salerno. Well, I don't have a specific case where 
it has led to a particular law enforcement problem other than 
to say there are situations where it is difficult to run 
numbers by a State law enforcement officer for an out of State 
vessel.
    There is also no Federal requirement for the operator of 
the vessel to have a license, as you mentioned, or even a form 
of identification. So that it can become very problematic in a 
law enforcement situation to establish identity of an 
individual on the water.
    Mr. Cummings. Is there something that the Congress can do 
to help you out?
    Admiral Salerno. Sir, I think maybe taking a look at that 
legislation on the information-sharing through the vessel 
identification system would be very helpful. And we would be 
very interested in working with your staff on maybe offering 
some language.
    Mr. Cummings. Mr. LoBiondo?
    Mr. LoBiondo. Thank you, Mr. Chairman.
    I would like to yield my time to Mr. Young.
    Mr. Young. Thank you, Mr. Chairman.
    Thank you, Mr. LoBiondo.
    My questions are really questions about Alaska, Admiral. 
The Coast Guard is currently implementing Rescue 21 Program in 
the Lower 48. This improved system of radio receivers can 
better determine the location of vessels making the emergency 
calls. This reduces the number of hoax calls and greatly 
reduces time spent searching for, rather than rescuing vessels 
and mariners in distress.
    Obviously, given the distances that are needed to be 
covered in Alaska waters, any reduction in the time spent 
searching prior to beginning rescue work would be greatly 
improved.
    Now, what is the time line for the Coast Guard plan to get 
Rescue 21 in operation in Alaska?
    Admiral Salerno. Sir, Alaska, as you know, poses some 
unique challenges in terms of geography, weather, and even the 
remoteness of many of the locations where we envision placing 
Rescue 21 towers. The remoteness makes it more difficult for 
logistical support.
    We anticipate beginning the process of establishing Rescue 
21 in Alaska in this present fiscal year, 2010. But it is a 
multi-year process. It will be several years before Rescue 21 
is fully established in Alaska.
    We will concentrate initially in the port areas, the major 
port areas. The staff has identified over 50 sites where Rescue 
21 towers would need to be established. But again, this is a 
multi-year process.
    I would also add, sir, that Coast Guard is very aware of 
the unique hazards in operating off Alaska for mariners, and it 
is also very much not only in their interest, but in the Coast 
Guard's interest to have a system in place that improves our 
ability to identify a vessel in distress and its location as 
rapidly as possible, and to get our assets on-scene as rapidly 
as possible. So we share that interest in making this happen 
quickly.
    Mr. Young. Well, Admiral, I hope we pursue this more 
rapidly because there is a difference in distances and line 
sight works maybe in the Lower 48. It is not practical in 
Alaska, so we are going to have to come up with a better 
mousetrap to make sure it works because this is crucially 
important, because we do have hoax calls. We do have things 
that occur that impeded the rescue of those who are truly 
endangered, so I hope you do that.
    Second question, as you know, there is currently virtually 
no maritime domain awareness infrastructure in the Arctic. This 
point was highlighted in the Arctic Council's Arctic Marine 
Shipping Assessment that was released early this year. And the 
House has passed legislation based on legislation I introduced 
to begin addressing this issue.
    The Coast Guard has alleged for several years now to being 
conducting an Arctic mission needs analysis. When will that 
mission needs analysis be completed and available for review?
    Admiral Salerno. Sir, we are conducting what we call a High 
Latitude Study, which will support the mission needs analysis. 
That is ongoing. We anticipate that that will be completed late 
spring, early summer of 2010.
    Mr. Young. Would the requirement of the use of Alaska State 
pilots and vessels working the U.S. Arctic provide an 
additional layer of protection for the Arctic environment and 
the mariners working there?
    Admiral Salerno. Sir, I would like to get back to you on 
the record for that one. I think there are some issues 
associated with proposed pilotage legislation in Alaska that 
have been somewhat problematic, and I would like to give you a 
more very carefully thought-out response.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T4021.023
    
    Mr. Young. I appreciate it. I didn't want to try to put you 
on the spot, but I am quite interested in this issue. I am in 
cross-hairs with some people that are going to be working up 
there, but I do believe that the additional pilotage would be 
good for the safety of the area and it is relatively 
inexpensive. And the State would also be responsible, then, if 
something was to occur whereby if they are not, the companies 
may be responsible. That doesn't relieve the possibility of an 
accident.
    The rationale for a bigger, more expensive naval security 
cutters was that the SCSs would use ship-based unmanned aerial 
vehicles. The use of UAVs would dramatically increase the 
number of squared nautical miles that the NSC can effectively 
patrol. This expanded range is of great concern in the Bering 
Sea for fisheries enforcement against foreign fishing 
incursions, search and rescue, and environmental protection.
    In other parts of the Coast Guard's mission area, this 
expanded coverage is important to drug and migrant 
interdiction. The Coast Guard has wisely decided that it lacks 
the resources to develop its own UAV system, but is looking at 
a land-and ship-based being developed by other entities.
    What is the status of the Coast Guard UAV program?
    Admiral Salerno. Yes, sir. There are essentially two 
programs being considered. There is a land-based UAV Program 
that we are looking at with actually Customs and Border 
Protection is in the lead and we are cooperating with them. And 
we anticipate having the first prototype testing beginning 
after the first of the year. This is essentially a Predator B 
platform that is marinized with sensors that can look down and 
detect vessels on the surface. That will begin very shortly.
    The second program is a ship-based program, and we are 
working, quite honestly, with the Navy and trying to leverage 
their technology and the work that they have done, particularly 
in their Fire Scout is one of the options that we have 
considered. And that is ongoing as part of the Deepwater 
Recapitalization Program.
    Mr. Young. The Coast Guard has a contract for the Sitka-
based firm to conduct cold weather training for the Coast Guard 
personnel. Unfortunately, the Coast Guard is only exercising 
its option for eight of the possible 16 training courses this 
year. And why isn't the Coast Guard fulfilling its obligation, 
I think, to train those people in the cold water system in 
Alaska? That is crucially important. You cut back in half, is 
what you have done.
    Admiral Salerno. Sir, I confess I am not familiar with that 
particular program, so if you would permit me, I will get back 
to you on the record for that.
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T4021.024
    
    Mr. Young. I thank you.
    Mr. Chairman, I have one other question. Do I have time to 
do this?
    Mr. Cummings. Go ahead.
    Mr. Young. Like Rescue 21, tracking vessels use an 
automatic identification system. It requires a line of sight 
coverage which is very expensive in Alaska. How does the Coast 
Guard intend to implement AIS coverage in Alaska?
    Admiral Salerno. Sir, there will be AIS coverage. It will 
be more focused around the major port areas such as Anchorage, 
Juneau, Valdez, and also in the Unimak Passage. There will be 
some considerable gaps in that coverage.
    In the interim, we are exploring the possible use of 
satellite-based AIS technology and we are evaluating its 
usefulness. So there is some coverage. It is not as frequent as 
you would have with a land-based system, but we are looking at 
that as a potential solution in the future.
    Mr. Young. Admiral, has the Coast Guard made a plan for 
disposition of the LORAN-C sites once the program is 
discontinued next year?
    Admiral Salerno. Sir, that is still pending. As I am sure 
you are aware, the LORAN-C system we believe has largely 
outlived its usefulness as a signal. Most mariners have moved 
beyond that to a GPS technology.
    As far as the disposition of the sites, that decision still 
pends, sir.
    Mr. Cummings. The gentleman's time has expired.
    Mr. Young. I thank the gentleman. I would like to get, if I 
could, get that back to me because that is important, that 
disposition of those sites.
    Admiral Salerno. Yes, sir.
    Mr. Young. Thank you.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T4021.025
    
    Mr. Cummings. Mr. Larsen?
    Mr. Larsen. Thank you, Mr. Chairman.
    Admiral, good to see you again and welcome to the Committee 
again.
    With regard to LRIT, the effective implementation of the 
mandated LRIT depends on the operation of a data center. 
Because we were concerned that the international data exchange 
would not be operational when the rule went into effect, I 
understand the Coast Guard agreed to set that up and is 
operating the data exchange during this year and next year.
    What plans are in place for the operation of the data 
center after the end of 2010?
    Admiral Salerno. Sir, there are a number of potential 
operators of a NOAA-LRIT exchange as opposed to the data 
center, the international data exchange, which is essentially 
the router which communicates between all the data centers. We 
are doing that, the U.S. is doing that until the end of 2011.
    It is not determined yet who will take that over from us. 
We agreed to do that on an interim basis, and not to do that 
indefinitely.
    We will continue to operate our own data center, which is 
where we collect information on U.S.-flag ships, and we will do 
that into the future. That would be operated by the Coast 
Guard. It is physically located in Martinsburg, West Virginia 
and that is where we collect the data on U.S. ships.
    Mr. Larsen. So do you anticipate, then, being out of the 
exchange business then at the end of you said 2011?
    Admiral Salerno. At this stage, we do anticipate that. It 
is not a hard deadline, but that was the agreement we gave to 
the international community that we would do it at least until 
then. I am personally aware of at least one other entity that 
is interested in approaching IMO, the International Maritime 
Organization, as a successor to our effort. But that has not 
yet been approved yet, or accepted by the international 
community. It is still in the formation phase.
    Mr. Larsen. Are all the signatories to SOLAS able to 
provide data to the exchange?
    Admiral Salerno. The best information we have now, sir, is 
that there are about 70 countries that do participate in a data 
center and have their ships equipped to provide the data. That 
compares to about 160 countries that are part of the 
International Maritime Organization, so roughly half of the 
countries.
    The good news is that most of the major flag states in the 
world are in that 70 that are already complying. So the vast 
majority of the world's tonnage we anticipate will be in 
compliance with this requirement.
    Mr. Larsen. You say the vast majority of the tonnage. Do 
you have a----
    Admiral Salerno. Sorry, a little term of art, basically, 
the numbers of ships that are operating in the world 
commercially in international service. The vast majority of 
them we--especially those that call on the United States we 
expect will be in compliance.
    Mr. Larsen. Yes. Sure. Well, according to the 2009 earlier 
GAO report, the Coast Guard had planned to allow individual 
captains of the port to determine how to deal with vessels not 
in compliance with the requirement. Has the Coast Guard given 
any baseline guidance to captains of the ports on how to handle 
vessels not in compliance?
    Admiral Salerno. There was guidance issued earlier this 
year. It was interim guidance during the pre-enforcement phase. 
As you probably know, sir, the actual mandatory compliance date 
will commence at the end of this month, the end of December. 
And so January 1st, we are in an enforcement mode.
    We are currently developing follow-on guidance on what to 
do in various situations when a ship either does not comply or 
their flag state is not complying, and we do have various 
enforcement options.
    I envision at this point that we will have a phase-in of 
our enforcement strategy the first couple months of the next 
calendar year.
    Mr. Larsen. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cummings. Mr. LoBiondo?
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Admiral, does the United States maritime community need a 
backup navigation system in addition to GPS, in your view?
    Admiral Salerno. Sir, that is a question that is actively 
being pursued at the Department of Homeland Security, the 
question of a backup for GPS. They are currently holding all of 
the users of position navigation and timing information to 
gather that and then to make that assessment. So that is very 
much an open question.
    Mr. LoBiondo. So is eLORAN being considered for that?
    Admiral Salerno. That has been mentioned as a possible 
backup for GPS should it be determined that a backup is needed, 
but there may in fact be other options as well.
    Mr. LoBiondo. I talked a little bit in my opening remarks 
about the duplication of information that is received. The 
Coast Guard receives information from a variety of different 
source, the AIS, long-range identification and tracking, vessel 
monitoring, et cetera, et cetera.
    I understand these systems were established by law, but is 
maintaining these redundant systems the most cost-effective and 
efficient way to collect information?
    Admiral Salerno. Well, sir, they all do feed the common 
operating picture. And there is value in various systems, even 
though they were designed for different purposes, all going 
into a single common operating picture. You have layers of 
information where data can be correlated. And from an awareness 
standpoint, if something doesn't add up, an anomaly exists, you 
now have a trigger point to look a little bit deeper.
    So there is value to all of these systems. They all serve 
somewhat different purposes. AIS, for example, is not the same 
thing as LRIT, although to the layman it may look like they 
are. They are in fact very different.
    There are differences between VMS and AIS. One critical 
difference is that VMS only applies to a very small percentage 
of the total number of fishing vessels. It is less than 10 
percent of fishing vessels are required to use the VMS system. 
It is really driven by the regional fisheries management plans, 
closed fishing areas, and so forth. So it is a very small 
percentage of the population.
    Mr. LoBiondo. Well, another example is Rescue 21. We are 
spending millions to install Rescue 21 and it has proved to be 
an extremely valuable tool for search and rescue, but I 
understand it is not being used to support other missions. Is 
the Coast Guard looking for ways to use Rescue 21 to support 
other missions that possibly could integrate it into a common 
operational picture?
    Admiral Salerno. Yes, sir. Particularly the infrastructure 
that is being built out for Rescue 21, the towers and so forth 
is also useful for the national AIS system. So there is dual 
use for a lot of the capabilities that are there.
    Mr. LoBiondo. And the Coast Guard has proposed to expand 
the AIS carriage requirements to fishing vessels and other 
small vessels. If this mandate were put in place, can you give 
us an idea of what the cost per vessel would be to purchase and 
maintain an AIS system?
    Admiral Salerno. Sir, first of all, let me differentiate 
between small vessels. There are commercial small vessels and 
recreational small vessels. And we do have a notice of proposed 
rulemaking which will expand the carriage requirements on 
commercial small vessels. And by that, I mean vessels that are 
less than 300 gross tons. There is no requirement contemplated 
that would apply AIS for recreational vessels.
    When the requirements are pushed to smaller commercial 
vessels, yes, there is a large number of vessels that will be 
affected, probably in the neighborhood of 17,000 vessels, but 
7,000 of them are fishing vessels. There is also small 
passenger vessels, towing vessels and so forth, that would be 
captured by that.
    There is the potential to use a AIS-B transmitter which is 
less expensive than the international.
    Mr. LoBiondo. Do you have any estimate of cost?
    Admiral Salerno. I believe in the neighborhood of somewhere 
between $500 and $1,500 if my memory serves me correctly, for 
the AIS-B, which is a domestic version of the AIS. It operates 
at reduced power. It does not meet the international 
requirements, but for many of these vessels, they won't need to 
do that.
    Mr. LoBiondo. And as you mentioned, the thousands and 
thousands of additional ships that come into this-- does the 
Coast Guard have a system in place to manage and process this 
huge increase in information? Can you deal with it?
    Admiral Salerno. Sir, that information does go into the COP 
and what we are also building out right now is a system call 
Watchkeeper, which will be, it is designed to be present in all 
of our Coast Guard sectors. It is being evaluated right now in 
Charleston at the Integrated Operations Center there, but its 
purpose is to synthesize all of this information and to make 
use of tools that can help differentiate between all the 
information to pick out the thing that you are looking for. So 
it has that ability to sort, to analyze and to share.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Mr. Ehlers?
    Mr. Ehlers. Thank you, Mr. Chairman.
    I would like to address the Great Lakes issue. As you know, 
we have many small vessels on the Great Lakes. The State of 
Michigan alone has over 900,000 registered boats of various 
sizes.
    How would this proposal impact the boats on the Great 
Lakes? Do you have some sort of minimum size that doesn't have 
to get these devices?
    Admiral Salerno. Yes, sir, there is a minimum size, and it 
is 65 feet. So in a general category, commercial vessels 65 
feet and greater would be required to have the AIS once the 
rule goes into effect. It is not yet in effect.
    There are some exceptions to that. Towing vessels, for 
example, as small as 26 feet would be required to have AIS, and 
vessels that are transporting dangerous cargoes. So there are a 
few exceptions to the length.
    But again, recreational vessels would not be captured by 
the rule.
    Mr. Ehlers. Okay. So you see this primarily as a defensive 
mechanism, and not necessarily to assist in search and rescue. 
Is that correct?
    Admiral Salerno. The primary purpose for AIS as designed is 
really a safety system to avoid collisions so that ships can 
see each other. In the past, if you were looking at a radar 
screen and you would see a blip, you would have to go through a 
process of calling and hopefully identify the right blip on 
your screen and establish communication so that you could avoid 
hitting each other.
    AIS provides you that immediate information as to the 
identity of the other vessel. So it is really a collision-
avoidance tool. It does have other benefits. Security is one of 
them. The ability to help identify the location of a vessel in 
a search and rescue case is also a potential benefit.
    So there are ancillary benefits to the system, yes, sir.
    Mr. Ehlers. Fine. Thank you very much.
    Mr. Cummings. Admiral Allen's report entitled DHS: Strategy 
and Plans to Counter Small Vessel Threats Need Improvement, The 
DHS Office of Inspector General has criticized the April, 2008 
small vessel security strategy, stating that among other 
things, the strategy does not address priorities, milestones, 
performance measures, progress indicators, strategic costs and 
human capital needs; does not address accountability or include 
an oversight framework; and does not address or provide 
implementation guidance for State, local or private strategies 
and plans.
    What is your response to these criticisms and do you intend 
to update the plan to address these shortcomings?
    Admiral Salerno. Yes, sir. As you know, it is a DHS plan 
that includes not only Coast Guard input, but other DHS 
components.
    Mr. Cummings. Right.
    Admiral Salerno. DHS partially concurred with the 
recommendations of the I.G. and agreed that there were elements 
of the plan that were not fully fleshed out and that do need 
further development. But these things can be addressed in 
follow-on implementation of the security strategy.
    And from a component perspective, as we look at the items 
that are contained in the plan that pertain to us, we recognize 
we need to do a very detailed look at how we will pursue this, 
the funding mechanisms and so forth, and whatever authorities 
might be needed.
    So yes, much more detail will need to be done at the 
component level.
    Mr. Cummings. And as I mentioned, one of the DHS Inspector 
General's criticisms is that the small vessel security strategy 
does not identify costs and human capital needs. How much will 
it cost?
    Admiral Salerno. Well, as you know, sir, there is a wide 
range of initiatives captured in the plan. And the DHS view is 
the plan was not meant to do an up front analysis of the 
program; that that was really going to be after the strategy 
was put in place, then we would look at individual ways to 
achieve the strategy and then make that benefit analysis at 
that point.
    Mr. Cummings. So if I were to ask you do you have the 
resources, you couldn't answer that question could you.
    Admiral Salerno. Not comprehensively, no, sir. We have the 
resources for some things, maybe not for others, but I think we 
almost have to go through item by item.
    Mr. Cummings. Mr. Larsen, did you have anything else?
    One last question then.
    The Inspector General also criticizes the strategy's lack 
of guidance for State and local partners. What assessments have 
been made of the capabilities of State and local partners, 
either to implement the strategy or to participate in maritime 
domain awareness and security efforts? And what are the 
specific resources that the State and local governments are 
lacking?
    Admiral Salerno. I can't speak to a specific assessment of 
where the assets and resources are. But I can tell you that we 
have a very vibrant relationship with NASBLA and have 
cooperated with them on establishing the common framework, a 
common lexicon for homeland security and law enforcement 
purposes so that we can be interoperable.
    So we would know, for example, a State of Maryland law 
enforcement boat, what its capabilities are, what the training 
of the officer onboard are, and how we can integrate them into 
a comprehensive security regime in a port area.
    This is going on around the Country. NASBLA has a training 
program that we are participating in to help train law 
enforcement so that we can be interoperable.
    Mr. Cummings. Ladies and gentleman, we have three votes and 
we are going to break now until, we are going to break until 
3:30 and thereabouts. As soon as we finish the vote, we will be 
back. Thank you very much.
    Admiral, I think we are finished with you, so thank you, 
thank you again.
    I will have some follow-up questions for you. Thanks.
    [Recess.]
    Mr. Cummings. Now, we welcome our second panelist, Ms. 
Margaret Podlich, who is the Vice President of Government 
Affairs for BoatU.S.
    Thank you very much.
    Ms. Podlich. Thank you so much for having me.
    Mr. Chairman, Ranking Member LoBiondo, I appreciate being 
here on behalf of our 600,000 boat owner members.
    For many, boating is the quintessential expression of the 
freedoms we enjoy in this Nation. I want to clarify at the 
start that the average boat in this Country is 16 feet long and 
it is parked in someone's driveway; 75 percent of the Nation's 
boat owners have an annual household income of $100,000 or 
less. There are an estimated 12.6 million registered boats in 
the Country.
    For the most part, boats less than 16 feet without engines 
do not have to be registered at the state level. Reaching these 
boats with any new Federal requirement would be extremely 
difficult and expensive. The boating industry is having a very 
hard time weathering the current economic storm. This industry 
has historically supported 337,000 jobs and generated $37.5 
billion in annual retail sales.
    The National Marine Manufacturers Association estimates 
that over 50 percent of the people employed in U.S. marine 
manufacturing and sales have temporarily or permanently lost 
their jobs.
    BoatU.S. is aware of the unique challenges facing the Coast 
Guard with regard to the variety and number of vessels on our 
Nation's waterways. We understand there is a tenuous balance 
between security and freedom of navigation.
    My comments today are focused on the potential future 
requirement of Class B AIS for recreational boats. BoatU.S. is 
strongly opposed to this for the following reasons:
    Class B AIS systems would require constant and reliable 
electric power on the boat. The systems could be turned on and 
off at will by either a good guy or a bad guy, and it could 
also be turned off by intermittent power issues. Anyone that 
has been on a boat and struggled to own a boat that has running 
lights that work all the time will understand what I mean by 
that.
    There are millions of small boats that don't have 
electrical systems at all. They would be incapable of operating 
an AIS, and just the installation of an AIS on a boat would not 
provide a high level of assurance that the equipment actually 
works after you install it.
    Data transmitted by an AIS unit can be deliberately 
spoofed. Terrorists intent on doing something bad on the 
waterfront would have no problem spoofing an AIS transponder, 
forcing it to report erroneous positions, speeds or course over 
ground. Because AIS units rely on accurate data from GPS, 
jamming GPS signals would be a spectacular way to incapacitate 
an entire harbor's AIS signals.
    A 2008 report from the U.K and Ireland shows that a 1.5 
watt GPS spoofing transmitter, which is about the same size as 
a shoe box, including the battery, could make every AIS in an 
area report totally inaccurate data.
    In high traffic areas, the more AIS transponders there are, 
the less effective the tool can be. We believe that adding 
millions of recreational boats to the Nation's AIS system would 
overwhelm the Coast Guard's ability to effectively monitor the 
entire system.
    Even with the Class B AIS unit on board, terrorists on 
small craft could have plenty of time to successfully achieve 
an attack from a boat. Class B AIS units transmit every 30 
seconds, and a small boat that is capable of 30 knots can move 
1,500 feet in 30 seconds between those transmissions.
    Class B AIS systems and the necessary antenna cost $600 for 
the equipment, to answer your question, sir, plus installation 
fees. And if a requirement came down to register boats, even 
half the registered boats in this country, say 6 million, the 
economic impact of that could easily reach $3.6 billion, which 
is a significant amount for this community.
    We continue to support Coast Guard's America's Waterway 
Watch Program which relies on the Neighborhood Watch concept. 
In our opinion, this type of program is more likely to succeed 
for two reasons. It treats boaters as part of the solution, 
rather than part of the problem, and it relies on boaters to 
know what doesn't look right on the water.
    We support giving AWW more sturdy legs in terms of 
infrastructure and funding, and we recommend an analysis be 
conducted to ensure that AWW evolves to include the lessons 
learned from our Neighborhood Watch groups.
    BoatU.S. is concerned that any potential future requirement 
for Class B AIS on recreational boats would be window dressing 
for a potential homeland security problem that will not be 
reduced despite the outlay of billions of dollars by our 
Country's boaters.
    On behalf of our 600,000 members owning more than 1 million 
boats, BoatU.S. opposes any future requirement for AIS on 
recreational boats.
    We do appreciate the opportunity to be here and would be 
happy to take your questions.
    Mr. Cummings. Thank you very much.
    Tell me about BoatU.S.
    Ms. Podlich. BoatU.S. is the Country's largest association 
of recreational boat owners. We have about 600,000 members 
around this Country. About 30,000 of those are in Maryland and 
another 30,000 in New Jersey.
    Mr. Cummings. And the Coast Guard has suggested the idea of 
creating a system of licensing for recreational boaters, 
somewhat similar to the system used for drivers. What is your 
reaction to that proposal?
    Ms. Podlich. The Coast Guard has been proposing that for 
several years. We have also heard that from Admiral Allen. We 
have no problem if the Coast Guard wants to be able to identify 
who is operating a boat with current identification cards. 
Those, for example, that TSA already accepts, a driver's 
license, a passport would be fine.
    We have significant concerns over any additional new 
licensing system.
    Mr. Cummings. So when it comes to numbers on a boat, things 
of that nature, where do you fall there? I mean like for small 
boats, is there a problem with having a number on a boat?
    Ms. Podlich. Right now, boats with engines have to be 
registered at the State level. So are you saying, sir, the 
possibility of registering smaller craft?
    Mr. Cummings. Yes.
    Ms. Podlich. In terms of today's discussion, I wonder what 
registration of small non-motorized craft, canoes and kayaks 
for example, would do for homeland security. I am not sure that 
putting a number on a windsurfer does homeland security much 
good.
    That being said, when it comes to whether small boats 
should be registered at the State level, there are definitely 
some pros to that because those people are using launch ramps, 
rescue services, parking lots, that right now the motor boat 
owners are paying for through the Wallop-Breaus Trust fund. So 
right now, the small non-motorized craft are not putting money 
into the fund, but they are receiving services from it. And 
certainly, they want to be rescued just along with everyone 
else.
    Mr. Cummings. You heard the testimony of the Coast Guard, 
Admiral Salerno, when he said that they have had cooperation, 
that is the Coast Guard, from half the States.
    Do you understand why they would want cooperation from all 
the States? And how do you feel about that?
    Ms. Podlich. Well, we certainly believe that Coast Guard 
should have access to that State registration data and we share 
your concern that only about half the States are participating. 
My understanding is that about half the registered boats in the 
Country are now known to the Coast Guard through that system.
    My understanding from working with the Coast Guard on this 
topic, and working through their Boating Safety Advisory 
Council, is that for some of the States that are slower to 
react to this request by the Federal Government, it is due to 
privacy concerns and perhaps their own State privacy laws 
prohibiting them from sharing personal data with other 
agencies. But we certainly understand that Coast Guard needs 
that data.
    Mr. Cummings. Now, do you all, does BoatU.S., I take it 
that you take official positions?
    Ms. Podlich. Yes, sir, we do.
    Mr. Cummings. Did you take a position on that issue?
    Ms. Podlich. On the information issue?
    Mr. Cummings. Let me tell you, show you where I am going.
    Ms. Podlich. Yes, sir.
    Mr. Cummings. Clearly, the Coast Guard needs all the 
cooperation it can get to get these other 25 States. We have an 
organization as large as yours that sounds--I mean, I don't 
know whether you are just speaking for yourself on this 
particular point, but that is at least empathetic to the 
problem that the Coast Guard is experiencing with regard to 
getting the other 25 States.
    And I am just wondering if you all have taken any kind of 
official position, your organization, with regard to that 
issue? Do you follow me?
    Ms. Podlich. Yes, sir.
    Mr. Cummings. Okay.
    Ms. Podlich. On this particular issue, we have not taken a 
position, but we also haven't been asked to. I guess I haven't 
seen a place to put an official position if we were to develop 
one.
    BoatU.S. and its members are incredibly supportive of the 
Coast Guard and the men and women who do such a remarkable job 
every day and every night, and frankly come and rescue us no 
matter what the weather is whenever we need them. They are an 
amazing service and we certainly want to support them.
    On this particular issue, we have supported the Coast Guard 
and their requests for VIS informally through our participation 
on the National Boating Safety Advisory Council of Coast Guard, 
on which I sit. So we have taken an informal position of 
support. We have not seen the opportunity to have a formal 
position of support.
    Mr. Cummings. I understand. And can you see a way? I am 
sure an initiative has come up before. Apparently, the Coast 
Guard--I didn't see you back there, Admiral. I thought you had 
gone. It makes my question all the more appropriate.
    Do you see what, can you think of anything that the Coast 
Guard might be able to do to get that cooperation? Because like 
I said to Admiral Salerno, when you have these holes, 25 of 
them out of 50, that is a problem. And I was just wondering if 
you, since you have so much access to so many people who are 
out there on the waterways and who care about the issue, I 
mean, is there anything that you might suggest or have 
suggested as a part of the Board?
    Ms. Podlich. Yes, sir. Actually, the Admiral and I were 
speaking to this specific topic during the break. And 
recognizing that the Coast Guard has I believe some of those 
States almost ready to come on board. You know, they are coming 
along in terms of joining the VIS system. And then there are 
some States--in my head, California is one of them--who says 
no; we have statewide privacy laws; we are not going to 
disclose name and address information about individual citizens 
and we are not sharing it with you.
    And I don't know how to break through that brick wall. If 
there is something that the boat owners could do to help the 
Coast Guard, we stand ready to do that because it is incredibly 
important to have that data.
    Mr. Cummings. Mr. LoBiondo?
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Thank you very much for being here today.
    Can you tell us, the Committee, how your organization feels 
the closure of LORAN-C will impact the recreational boating 
community?
    Ms. Podlich. Great question. And as you know, LORAN has 
been the historic method that mariners have used and anglers 
have used to find where they are going. Many of our members 
have historically been very concerned about losing LORAN-C. 
Many of our members have evolved to GPS navigation.
    As I pointed out today, GPS can be spoofed, and using GPS 
as our sole way to know where we are on the water without a 
backup is of significant concern to us organizationally, as 
well as to many of our members.
    And so with the thought that LORAN-C is going away, based 
on things we have heard today and we know are happening, we do 
have concerns about leaving our boat owners, as well as 
commercial fishermen and other mariners, with solely GPS 
capability.
    Mr. LoBiondo. That having been said, would you support or 
suggest a backup system that you think your members would want 
to see, eLORAN or something else? Is there anything you can 
share with us there?
    Ms. Podlich. E-LORAN has generated a great deal of interest 
within our membership in terms of that backup system. I can't 
speak to exactly how many of our members are using that and 
relying on and would like to use LORAN, continue to use LORAN. 
But just the fact that GPS is so easy to take off-line is a big 
concern navigationally for recreational, and I would say 
commercial craft as well.
    Mr. LoBiondo. Well, the Department of Homeland Security 
released the small vessel security strategy in April of 2008 to 
address the risks associated with potential use of small 
recreational vessels to stage an attack on the United States or 
our interests.
    You talked a little bit about Boat Watch as being one of 
the ideas that you and your organizations could propose that 
would help the general public enhance safety and security in 
coastal waters. Is there anything else besides Boat Watch that 
you believe you, BoatU.S., can work with the Coast Guard to 
better publicize actions to the general public or enhance 
safety and security measures?
    Ms. Podlich. Yes, sir. As the background document pointed 
out, the GAO suggests that 10 percent of the Nation's boaters 
are aware of America's Waterway Watch, or perhaps that they 
have been exposed to it through their registration letters they 
get in the mail.
    BoatU.S. has publicized America's Waterway Watch on 
numerous different venues, websites, posted the Admiral's video 
on our website, and editorial. We will continue to do that.
    I think that we need to do more diverse education of the 
boaters about how to tap AWW, what to look for. I am not sure 
the average boater is aware that they have this opportunity to 
report, and if they see something strange, where to go to.
    In terms of other capabilities with Coast Guard, one of the 
things that has come to my attention in the last year or so is 
that Coast Guard does not currently, and the Admiral can 
correct me if I am wrong, have the ability to require you as 
they board your boat to produce an identification card. They 
can ask nicely and they can imply that it is a law, but if you 
said no, I am not sure that there is a consequence to that.
    From where we sit, and the homeland security threats that 
we are aware of, we certainly understand that law enforcement 
agencies would want to identify that boat owner as they board 
and ask, who are you, sir and could you please produce a piece 
of identification to show us who you are. We certainly back 
that need as long as it is a TSA, already in existence TSA-type 
identification, whether it is a driver's license or passport or 
something already in existence. We do not support the idea of 
an additional form of identification just for boaters.
    But perhaps that is something that would help the Coast 
Guard in this realm and something that we could pursue through 
legislation, regulation, I am not sure what it takes to give 
them that ability.
    Mr. LoBiondo. Thank you, Mr. Chairman.
    Mr. Cummings. Thank you.
    Let me ask you, on this waterway, the Watch program, you 
said that it might be helpful for them to know what they are 
watching for, and that makes a lot of sense. The information 
that you put out now, does it contain that kind of information, 
or are you just kind of, it contains it, but you are not 
getting it out to, you would like to get it out to more people? 
Or what is the deal there?
    I just seems like you want to get the most, if you are 
putting information out about what to look for, it seems like 
you want to get the most bang for your effort.
    Ms. Podlich. Yes, sir.
    Mr. Cummings. I was wondering.
    Ms. Podlich. Yes, sir. Two answers on that. First, the 
Coast Guard has had America's Waterway Watch for several years 
and, forgive me, I don't have the details on the years for 
that, and I think it is a fabulous effort. My concern about AWW 
is that it has been a bit of a stepchild within Coast Guard in 
terms of staffing and funding and creation of a significant 
program.
    They have done all they can with what they have been given 
for America's Waterway Watch. The boating community is resting 
heavily on America's Waterway Watch working when we need it to 
work, as is the entire Nation in terms of the waterfront threat 
to homeland security.
    So I would like to make sure that Coast Guard has the 
resources that it needs to prop up that infrastructure, make 
sure that if a boater calls, that that call is processed the 
way it is supposed to be processed, that we get the bad guy in 
time, that the whole system is working. And I think the Coast 
Guard has done a tremendous job of working with what they have 
been given. I question whether they have been given enough. And 
actually in the House version of the reauthorization bill that 
has moved forward, there is a stronger provision for AWW.
    So they have printed brochures. They have information on 
the web. They have produced the information about what to look 
for.
    From the BoatU.S. perspective, we have advertised that 
there is an America's Waterway Watch. Here is the phone number 
you call if you see something suspicious. And we have given 
general information about what to look for. But rather than 
reinvent that, we have referred people to the Coast Guard's 
printed and web materials.
    So I think it is two-pronged. From the boating community, 
we are looking to America's Waterway Watch to be highly 
successful. In a former life, I was a volunteer coordinator. I 
think there is a lot that can be done to bolster the 
volunteerism in this Country, and frankly the patriotism of our 
Nation's boaters to help America's Waterway Watch be really 
successful when we need it to be.
    Mr. Cummings. Now, so do you, tell me what kind of material 
do you all give out? In other words, say for example, do you 
give your boaters information as to how to contact the Coast 
Guard? And I am sure the Coast Guard probably has something, 
too. But I am just trying to figure out what you all do with 
regard to, what you put out to your constituency members to 
help you meet the ends that you are trying to meet to get to 
where, in other words, whatever your objectives are.
    Ms. Podlich. Are you talking about in terms of America's 
Waterway Watch specifically?
    Mr. Cummings. Yes.
    Ms. Podlich. BoatU.S. has a magazine that goes out six 
times a year to all our members. It has one of the largest 
circulations of boating magazines in the Country. We have 
written about AWW in the editorial of that, on page three. We 
have also had small articles about America's Waterway Watch. 
This is our number one way to reach all of our members.
    We have also put it on our website which is open to the 
general boating public. It is open to anyone. It is not members 
only. And we have put information in there if someone is 
looking for it.
    We have also put it, every other month we have an email 
that goes out to about 68 percent of our members that we have 
emails for and we have included it in there.
    Mr. Cummings. And are there other organizations, I mean 
like yours, that compete against you all? I am just curious.
    Ms. Podlich. Not really, sir. There are many other 
organizations that represent other parts of the marine 
industry, for example National Marine Manufacturers 
Association. They have a representative here. They represent 
the manufacturer. We represent the consumer, the boat owner.
    Mr. Cummings. I see.
    Ms. Podlich. And we work alongside with Coast Guard 
Auxiliary, Power Squadron, many other groups, but we do a wide 
range of services very similar to AAA and what they do for 
cars. We try to do anything you need to have a better boating 
experience.
    Mr. Cummings. I note that your testimony on page nine you 
say that recreational vessel registrations have been relatively 
flat over the past decade and have even dipped over the past 
year. We realize that the economy is going through some 
difficulties. But have you all come to any conclusions as to 
why that might be, that is, the dip in registrations?
    Ms. Podlich. Some of that is cyclical in terms of, for 
example, California. Every two years, it has a two-year 
registration cycle and every two years it goes up and every 
other year is goes down. So it may be part of that.
    One of the things we are seeing in the last several years 
is that people may have the boat in their driveway. They may 
still own it. Hopefully, they still insure it. But they may not 
register it. You know, if they are cutting back and they are 
not going to go boating this year. Maybe they don't have that 
disposable income or time, or gasoline might be more than $4 a 
gallon like last summer, they may not use it and so they may 
not register it. And that would affect this number.
    In Ohio in particular, I know their numbers, their total 
number of registered boats in the last several years has 
remained fairly steady. However, the segment that is a powered 
boat has gone down substantially, and the number of canoes and 
kayaks that they have registered has gone up. Ohio is one of 
those States that registers those small non-powered boats.
    And their philosophy or the thought process with it is that 
it is the part of boating that people can easily obtain. If you 
want a boat, there is an entry-level boat. You can buy it at 
Wal-Mart. You can keep it under the porch, even if you don't 
have room for a trailer. It is an easy way to get into boating, 
and that is why they think that part of the boating industry is 
holding steady.
    Mr. Cummings. One of the evening news shows had not long 
ago a feature about how people were abandoning their boats 
because they could not afford to take care of them, which I 
found really pretty sad. Do you hear a lot of cases about those 
kind of cases?
    Ms. Podlich. I certainly saw a lot of press on this about 
six months ago, and there was a New York Times article that 
made a lot of waves on this topic. We see abandoned boats, 
particularly after big storm events, like big hurricanes, where 
people go back to their baby, their boat, and it is just 
demolished. Or they might not even be able to find it, it has 
moved so much.
    And so after that kind of storm activity, particularly in 
the Florida area, there is a rather significant abandoned boat 
problem.
    Our members tend to be a little bit older. They tend to 
have been in boating a while. They have an average of 1.8 boats 
each. And they have been in boating a long time. They are not 
abandoning their boats. They are taking care of them or they 
are passing them to their kids. They are selling them to the 
neighbors.
    The idea of proper disposal of your boat when you are done 
with it is one that BoatU.S. is pushing. Your disposal of your 
boat when you were done with it should not become society's 
problem of recycling or trash.
    Mr. Cummings. Mr. LoBiondo?
    Well, I thank you very much. Your testimony was excellent. 
Thank you. And I will have some additional questions for you, 
but we really do appreciate your testimony.
    This hearing is adjourned.
    [Whereupon, at 4:05 p.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T4021.026
    
    [GRAPHIC] [TIFF OMITTED] T4021.027
    
    [GRAPHIC] [TIFF OMITTED] T4021.028
    
    [GRAPHIC] [TIFF OMITTED] T4021.029
    
    [GRAPHIC] [TIFF OMITTED] T4021.030
    
    [GRAPHIC] [TIFF OMITTED] T4021.031
    
    [GRAPHIC] [TIFF OMITTED] T4021.032
    
    [GRAPHIC] [TIFF OMITTED] T4021.033
    
    [GRAPHIC] [TIFF OMITTED] T4021.034
    
    [GRAPHIC] [TIFF OMITTED] T4021.035
    
    [GRAPHIC] [TIFF OMITTED] T4021.036
    
    [GRAPHIC] [TIFF OMITTED] T4021.037
    
    [GRAPHIC] [TIFF OMITTED] T4021.038
    
    [GRAPHIC] [TIFF OMITTED] T4021.039
    
    [GRAPHIC] [TIFF OMITTED] T4021.040
    
    [GRAPHIC] [TIFF OMITTED] T4021.041
    
    [GRAPHIC] [TIFF OMITTED] T4021.042
    
    [GRAPHIC] [TIFF OMITTED] T4021.043
    
    [GRAPHIC] [TIFF OMITTED] T4021.044
    
    [GRAPHIC] [TIFF OMITTED] T4021.045
    
    [GRAPHIC] [TIFF OMITTED] T4021.046
    
    [GRAPHIC] [TIFF OMITTED] T4021.047
    
    [GRAPHIC] [TIFF OMITTED] T4021.048
    
    [GRAPHIC] [TIFF OMITTED] T4021.049
    
    [GRAPHIC] [TIFF OMITTED] T4021.050
    
    [GRAPHIC] [TIFF OMITTED] T4021.051
    
    [GRAPHIC] [TIFF OMITTED] T4021.052
    
    [GRAPHIC] [TIFF OMITTED] T4021.053
    
    [GRAPHIC] [TIFF OMITTED] T4021.054
    
    [GRAPHIC] [TIFF OMITTED] T4021.055
    
                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
